                   Restructuring and Reform Act of 1998
                      Section 1203 Allegations Were
                           Properly Controlled

                                 September 2004

                       Reference Number: 2004-40-176




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  September 22, 2004


      MEMORANDUM FOR CHIEF HUMAN CAPITAL OFFICER


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Restructuring and Reform Act of 1998
                                    Section 1203 Allegations Were Properly Controlled
                                    (Audit # 200440040)


      This report presents the results of our review of Internal Revenue Service (IRS)
      Restructuring and Reform Act of 1998 (RRA 98)1 Section (§) 1203 allegations. The
      overall objective of this review was to determine whether the IRS process ensured
      § 1203 allegations referred for action and management responses were accounted for
      and addressed. The RRA 98 added Title 26 United States Code § 7803 (d)(1)(A),
      requiring the Treasury Inspector General for Tax Administration (TIGTA) to annually
      report to the Congress any terminations or mitigations under RRA 98 § 1203.
      In summary, the IRS process ensured § 1203 allegations referred for action and
      management responses were accounted for and addressed. The IRS properly
      controlled 33 referred allegations and 51 reports of investigation forwarded from the
      TIGTA Office of Investigations and 1,302 referrals from the Employee Tax Compliance
      (ETC) Branch in the IRS systems. In addition, the IRS and the § 1203 Review Board
      adequately controlled 141 cases forwarded to the § 1203 Review Board for final
      determination during the 15-month period ending March 31, 2004. The 141 cases were
      identified from IRS records and traced to the § 1203 Review Board records to establish
      that all substantiated § 1203 cases were addressed.
      While reviewing ETC case processing, we identified 198 cases as of March 31, 2004,
      that were open for over 180 calendar days without a resolution as to whether the tax
      compliance issue was a substantiated § 1203 violation. Labor Relations offices did
      perform informal monthly reviews of cases over 180 calendar days old. However, Labor

      1
       Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
      16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                            2

Relations Specialists did not document their follow-up activities or reasons for the delay
in the case histories. We identified some cases with periods spanning several months
after the cases were 180 calendar days old in which there was no activity noted in the
case history or an explanation for the delay. In these overage cases, continual
management oversight is needed to ensure more timely resolution of § 1203 violations
and eliminate unnecessary stress to employees when cases are needlessly delayed.
We recommended the Chief Human Capital Officer formalize in the Internal Revenue
Manual (IRM) the monthly requirement to conduct and document follow-up activity on all
cases open for over 180 calendar days and perform annual follow-up reviews to ensure
the process is consistently followed.
Management’s Response: IRS management agreed with our recommendation and will
include the recommended requirement in an IRM currently under development
concerning the processing of conduct cases. Training is also planned to implement the
requirement. Management’s complete response to the draft report is included as
Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                                  Restructuring and Reform Act of 1998
                           Section 1203 Allegations Were Properly Controlled




                                                  Table of Contents


Background ............................................................................................... Page 1
Allegations Referred From the Treasury Inspector General for Tax
Administration Were Properly Controlled .................................................. Page 3
Reports of Investigation Referred From the Treasury Inspector
General for Tax Administration Were Properly Controlled......................... Page 4
The Process Should Ensure Cases Are Timely Considered
by the Section 1203 Review Board ........................................................... Page 5
Employee Tax Compliance Allegation Controls Could Be Enhanced........ Page 6
         Recommendation 1: .........................................................................Page 8

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Outcome Measures............................................................ Page 14
Appendix V – The Section 1203 Process .................................................. Page 15
Appendix VI – Management’s Response to the Draft Report .................... Page 19
                   Restructuring and Reform Act of 1998
             Section 1203 Allegations Were Properly Controlled

                           On July 22, 1998, the President signed into law the Internal
Background
                           Revenue Service (IRS) Restructuring and Reform Act of
                           1998 (RRA 98).1 This Act added Title 26 United States
                           Code Section (§) 7803 (d)(1)(A), requiring the Treasury
                           Inspector General for Tax Administration (TIGTA) to
                           annually report to the Congress any termination or
                           mitigation under RRA 98 § 1203. Section 1203 provides
                           the IRS Commissioner with the authority to terminate the
                           employment of IRS employees for certain proven violations2
                           committed in connection with the performance of their
                           official duties. The IRS Commissioner also has the sole
                           authority to determine whether mitigating factors exist that
                           weigh against termination.
                           The TIGTA Office of Investigations (OI) is responsible for
                           the initial investigation of all § 1203 allegations except
                           those complaints related to the failure to file a tax return or
                           the understatement of Federal tax liability identified through
                           the Employee Tax Compliance (ETC) Branch or complaints
                           related to discrimination (civil rights) identified through the
                           Equal Employment Opportunity process. The TIGTA OI is
                           generally responsible for § 1203 allegations related to
                           employee false statements under oath, harassment,
                           falsification of documents, assault or battery, confidentiality
                           and disclosure of tax return information, or threat of
                           examination.
                           After initially evaluating the allegations, the TIGTA OI has
                           the option of opening an official investigation or referring
                           the allegations to the IRS through the Employee Conduct
                           and Compliance Office (ECCO). The ECCO verifies that
                           all of the § 1203 allegations referred by the TIGTA OI are
                           accounted for in the Executive Correspondence
                           Management System (ECMS). The ECCO assesses these
                           allegations through a fact-finding process and sends the
                           results to the Board of Employee Professional
                           Responsibility (BEPR). If the BEPR determines there were


                           1
                             Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                           sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                           23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                           2
                             See Appendix V for an explanation of the acts and omissions requiring
                           employee removal under RRA 98 § 1203 and a description of the § 1203
                           process.
                                                                                          Page 1
      Restructuring and Reform Act of 1998
Section 1203 Allegations Were Properly Controlled

              no § 1203 issues present in the allegation or the allegation
              did not rise to the level of a § 1203 violation, the BEPR will
              issue the employee either a “clearance,” a “closed without
              action,” or a “no investigation” letter. Clearance letters are
              issued when the BEPR cannot substantiate that a § 1203
              violation occurred; closed without action and no
              investigation letters are issued for less clear situations. For
              allegations for which the BEPR determines a § 1203
              violation may have occurred, the case is returned to the
              TIGTA OI for investigation. The IRS notifies the TIGTA
              OI of the results of these reviews and the final action taken.
              If notification is not received in 180 calendar days, the
              TIGTA OI sends a quarterly email to the IRS following up
              on the status of the outstanding overage allegations.
              Once the TIGTA OI completes its review of a § 1203
              allegation opened as an official investigation, a report of
              investigation is sent to the IRS. The ECCO reviews the
              reports of investigation for potential § 1203 violations and
              forwards those cases to the Human Capital Office Labor
              Relations offices. The Labor Relations Specialists use the
              Automated Labor and Employee Relations Tracking System
              (ALERTS) to track the § 1203 reports of investigation. The
              ALERTS tracks a wide range of labor activities that include
              investigations of IRS employee misconduct and other
              performance problems. The Labor Relations Specialists are
              tasked with assisting an employee’s manager in evaluating
              the alleged § 1203 violation(s). The IRS notifies the
              TIGTA OI of the results of the allegation reviews and the
              final actions taken.
              Allegations relating to an employee’s failure to file a tax
              return or the understatement of an employee’s Federal tax
              liability are referred from the ETC Branch to the Labor
              Relations offices for investigation. The case files involving
              General Schedule (GS)-14 employees and below are sent to
              the jurisdictional Labor Relations Office for resolution. The
              ETC allegations involving a senior executive, a GS-15, or a
              senior manager pay band employee are forwarded directly
              to the Centralized Adjudication Branch (CAB) for review.
              The Labor Relations Specialist controls the ETC cases on
              the ALERTS and assists the employee’s local manager in
              determining whether the violation meets the § 1203
              guidelines.
                                                                      Page 2
                          Restructuring and Reform Act of 1998
                    Section 1203 Allegations Were Properly Controlled

                                  When an allegation is substantiated as a § 1203 violation,
                                  the employee’s second-line manager (Proposing Official)
                                  recommends removal in a letter to the employee. The
                                  employee then has the opportunity to provide a written or
                                  oral response. If after reviewing the circumstances of the
                                  case and the employee’s response the next level manager
                                  (Deciding Official) agrees that the § 1203 violation was
                                  substantiated, the case is forwarded to the § 1203 Review
                                  Board.
                                  The § 1203 Review Board is responsible for considering
                                  any mitigating circumstances in the case and either making
                                  a recommendation to the Commissioner for mitigation of
                                  the penalty or concluding that mitigation is not warranted.
                                  If mitigation is not warranted, the case is returned to the
                                  Labor Relations Office, where a removal letter is prepared
                                  and signed by the employee’s manager. If mitigation is
                                  recommended, the § 1203 Review Board presents the case
                                  to the Commissioner for the final determination of whether
                                  the penalty against the employee can be either mitigated or
                                  upheld.
                                  This review was performed at the IRS National
                                  Headquarters in Washington, D.C., in the Human Capital
                                  Office during the period February through July 2004. The
                                  audit was conducted in accordance with Government
                                  Auditing Standards. We focused our review on allegations
                                  referred by the TIGTA OI and the ETC Branch. We did not
                                  evaluate the controls over the CAB cases in this review. In
                                  addition, we did not evaluate TIGTA OI operations and
                                  controls or the accuracy of the IRS § 1203 determinations.
                                  Detailed information on our audit objective, scope, and
                                  methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  The IRS process ensured allegations referred by the TIGTA
Allegations Referred From the
                                  OI were properly accounted for and timely addressed. The
Treasury Inspector General for
                                  IRS controlled allegations on the ECMS, as appropriate, for
Tax Administration Were
                                  the 33 allegations referred by the TIGTA OI between
Properly Controlled
                                  October 1, 2003, and December 31, 2003.
                                  The IRS also notified the TIGTA OI of the results of its
                                  reviews of allegations and the actions taken on allegations
                                  referred. We were advised that, if the IRS notification was

                                                                                        Page 3
                         Restructuring and Reform Act of 1998
                   Section 1203 Allegations Were Properly Controlled

                                 not received in 180 calendar days, the TIGTA OI would
                                 send a quarterly email to the IRS following up on the status
                                 of the outstanding overage allegations. However, there
                                 were no overage § 1203 allegations listed at the time of our
                                 review.
                                 During Calendar Year 2003, the IRS closed 75 allegations
                                 referred by the TIGTA OI. An analysis of the ECMS
                                 records indicates the staffs from the BEPR and the ECCO
                                 reviewed and closed these complaints, on average, within
                                 60 calendar days.
                                 The IRS process ensured reports of investigation referred by
Reports of Investigation
                                 the TIGTA OI were accounted for and addressed. The IRS
Referred From the Treasury
                                 controlled cases on the ALERTS, as appropriate, in the
Inspector General for Tax
                                 51 reports of investigation that were referred between
Administration Were Properly
                                 January 1, 2004, and March 31, 2004.
Controlled
                                 The IRS had also appropriately addressed the reports of
                                 investigation referred by the TIGTA OI. As of
                                 March 31, 2004, there were 11 reports of investigation open
                                 for over 180 calendar days without a resolution. Labor
                                 Relations Specialists should have followed up monthly on
                                 cases open on the ALERTS for over 180 calendar days. In
                                 5 of the 11 cases, the ALERTS case histories indicated there
                                 was continual activity on the cases. However, in the
                                 remaining six case histories, the Labor Relations Specialists
                                 did not document specific follow-up activities. In these six
                                 cases, there were periods of inactivity spanning months
                                 without an explanation. If the requirement for reviewing
                                 cases over 180 calendar days and documenting those
                                 reviews had been implemented, it would have helped ensure
                                 cases with § 1203 violations were timely addressed.
                                 An ALERTS analysis indicated that, during Calendar
                                 Year 2003, Labor Relations Specialists, with the assistance
                                 of the local managers, completed evaluating 184 reports of
                                 investigation with potential § 1203 violations. On average,
                                 it took 102 calendar days for Labor Relations Specialists
                                 working with local management to complete and close these
                                 cases on the ALERTS or forward them to the § 1203
                                 Review Board for final review.



                                                                                       Page 4
                         Restructuring and Reform Act of 1998
                   Section 1203 Allegations Were Properly Controlled

                                 The IRS process ensured allegations substantiated as
The Process Should Ensure
                                 § 1203 violations by local managers were forwarded to the
Cases Are Timely Considered
                                 § 1203 Review Board and accounted for properly. The
by the Section 1203 Review
                                 § 1203 Review Board analysts controlled a total of
Board
                                 141 substantiated allegations referred by the Deciding
                                 Officials between January 1, 2003, and March 31, 2004.
                                 This included 126 ETC cases and 15 reports of investigation
                                 addressing other § 1203 violations.
                                 During the first 5 months of Calendar Year 2003, the § 1203
                                 Review Board met regularly to review substantiated § 1203
                                 violations. However, for the 170-calendar day period
                                 between May 13, 2003, and October 30, 2003, the § 1203
                                 Review Board only held 1 meeting.
                                 The § 1203 Review Board’s Charter required meetings to be
                                 called with a quorum, including the Chair and two members
                                 of the § 1203 Review Board, to process pending cases.
                                 Three voting members constituted a quorum. The § 1203
                                 Review Board had a total of five members, including the
                                 Chair and four other permanent members. During Calendar
                                 Year 2003, three voting members of the § 1203 Review
                                 Board, including the Chair, retired or moved to another
                                 position, which made it impossible to have a quorum.
                                 The delay in scheduling § 1203 Review Board meetings
                                 affected the timely review of substantiated § 1203
                                 violations. In Calendar Year 2003, on average it took the
                                 § 1203 Review Board 87 calendar days to review the cases
                                 and make a final determination as to whether to make a
                                 recommendation to the Commissioner for mitigation or
                                 proceed with the employee’s removal.
                                 To select new members and prevent future delays in
                                 scheduling § 1203 Review Board meetings, a new § 1203
                                 Review Board Charter was written in October 2003. The
                                 new charter designated the new § 1203 Review Board
                                 members and provided for alternate members when needed.
                                 The new § 1203 Review Board consisted of four members,
                                 including a Chair and three alternate members, and an
                                 alternate Chair. These revisions should ensure sufficient
                                 members to have a quorum.
                                 In October 2003, the § 1203 Review Board began to meet
                                 on a regular basis. During the first quarter of Calendar

                                                                                     Page 5
                          Restructuring and Reform Act of 1998
                    Section 1203 Allegations Were Properly Controlled

                                  Year 2004, the § 1203 Review Board, on average, was able
                                  to review pending cases and make the final determinations
                                  within 46 calendar days from the receipt date. This was a
                                  marked improvement over the average time of 87 calendar
                                  days it took the § 1203 Review Board to review a case in
                                  Calendar Year 2003.
                                  The IRS has made a commitment to its employees to ensure:
                                  •   Fair and equitable treatment of taxpayers, taxpayer
                                      representatives, and employees consistent with § 1203.
                                  •   Alleged § 1203 violations are thoroughly reviewed and
                                      resolved promptly and properly.
                                  •   Existing procedures are used to resolve allegations that
                                      do not meet § 1203.
                                  To meet this commitment, the § 1203 Review Board should
                                  continue to meet on a regular basis. The § 1203 Review
                                  Board plays a critical role for the Commissioner by timely
                                  examining all § 1203 cases in which a Deciding Official has
                                  made a determination that there is a § 1203 violation. We
                                  believe with the new § 1203 Review Board Charter
                                  expanding the number of available members, the § 1203
                                  Review Board should be able to ensure the timely review of
                                  substantiated § 1203 violations. These changes should also
                                  help limit the effect future retirements and transfers could
                                  have on the § 1203 Review Board operations.
                                  The IRS process ensured cases forwarded from the ETC
Employee Tax Compliance
                                  Branch involving potential willful failure to file a tax return
Allegation Controls Could Be
                                  and understatement of Federal tax liability, both potential
Enhanced
                                  § 1203 violations, were controlled on the ALERTS. Our
                                  analysis of the ALERTS records indicated the IRS
                                  controlled 1,302 cases that, where appropriate, were
                                  forwarded by the ETC Branch between January 1, 2004, and
                                  March 31, 2004.
                                  An analysis of the ALERTS records during Calendar Year
                                  2003 indicated that local managers, with the assistance of
                                  the Labor Relations Specialists, completed evaluating the
                                  circumstances surrounding 4,454 referrals from the ETC




                                                                                          Page 6
      Restructuring and Reform Act of 1998
Section 1203 Allegations Were Properly Controlled

              Branch.3 On average, during Calendar Year 2003, it took
              67 calendar days for Labor Relations Specialists to close
              these cases or forward the substantiated § 1203 violation
              cases to the § 1203 Review Board. During this period, there
              were 93 ETC referrals substantiated as § 1203 violations
              and forwarded to the § 1203 Review Board for
              consideration.
              Each of the 3 Labor Relations Area Senior Consultants
              established a control to review all cases open over
              180 calendar days and to report the status of those cases. As
              of March 31, 2004, there were 198 ETC referrals open in the
              ALERTS for over 180 calendar days, 22 of which were
              open for over 360 calendar days, without a resolution as to
              whether the tax compliance issue was a substantiated § 1203
              violation.

                                         ETC Referrals Open in the ALERTS
                                         Over 180 Days as of March 31, 2004
                          50
                                 44
                          40                      35
                                         33                 28        27
                  Cases




                          30
                                                                                  22
                          20
                                                                              9
                          10
                          0
                               181-210 211-240 241-270 271-300 301-330 331-360    >360
                                                           Days

              Source: The IRS ALERTS.

              In 11 of the 22 cases, the Labor Relations Specialists did not
              document their follow-up activities or reasons for the delay
              in the case histories. In 8 of these 11 cases, there were
              periods of unexplained delays after the cases reached
              180 calendar days old. One of the 8 cases showed no
              activity for nearly 2 years. In the remaining 11 cases,
              although there were no follow-up activities documented,
              there were notations in the ALERTS case histories that
              might justify the long delays. For example, there were cases
              in which the employee was on military leave or had health
              issues, but the related period was not specifically identified.


              3
               This analysis included referrals made during Calendar Years 2002 and
              2003.
                                                                                   Page 7
      Restructuring and Reform Act of 1998
Section 1203 Allegations Were Properly Controlled

              Our analysis indicated that each of the 3 Area Offices had
              cases over 360 calendar days old.
              The monthly review of all § 1203 cases over 180 calendar
              days old is not a formal Internal Revenue Manual
              requirement. While less than 3 percent of cases fall into the
              over 180-calendar day category, there is still a need to
              identify and resolve delays in processing these cases. We
              believe continual management oversight is needed to ensure
              Labor Relations Specialists perform monthly follow-up
              reviews on all cases over 180 calendar days old. This will
              ensure more timely resolution of § 1203 violations and
              eliminate unnecessary stress to employees in instances in
              which cases are needlessly delayed.

              Recommendation

              1. The Chief Human Capital Officer should formalize in
                 the Internal Revenue Manual the monthly requirement to
                 conduct and document follow-up activity on all cases
                 over 180 calendar days old and perform annual
                 follow-up reviews to ensure the process is consistently
                 followed.
              Management’s Response: Management agreed and will
              include the recommended requirement in an Internal
              Revenue Manual currently under development concerning
              the processing of conduct cases. Training is also planned to
              implement the requirement.




                                                                    Page 8
                               Restructuring and Reform Act of 1998
                         Section 1203 Allegations Were Properly Controlled

                                                                                                      Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) process ensured the IRS Restructuring and Reform Act of 1998 (RRA 98) Section
(§) 12031 allegations referred for action and management responses were accounted for and
addressed. Specifically, we focused our review on § 1203 cases referred by the Treasury
Inspector General for Tax Administration (TIGTA) and the Employee Tax Compliance (ETC)
Branch. If the alleged issue involved a senior executive, a General Schedule 15, or a senior
manager pay band employee, the related allegations were forwarded directly to the Centralized
Adjudication Branch (CAB) for review. Due to time constraints, we did not evaluate the
controls over the CAB cases in this audit. In addition, this review did not evaluate TIGTA
Office of Investigations (OI) operations or controls or the accuracy of the IRS § 1203
determinations.
To accomplish our objective, we:
I.       Evaluated whether the IRS process accounted for and addressed § 1203 allegations
         referred by the TIGTA OI.
         A. To determine whether cases were accounted for, traced the allegations from the
            TIGTA Performance and Results Information System (PARIS)2 that were forwarded
            during the period October 1, 2003, through December 31, 2003, to the IRS Executive
            Correspondence Management System (ECMS) database. We followed up on any
            cases not recorded to determine whether the omissions were appropriate.
         B. To determine whether the IRS monitored the TIGTA’s 180-day listing for appropriate
            action, evaluated the actions taken by the IRS in response to the last TIGTA listing of
            the cases open for 180 days or more.
         C. To establish the average length of time it took the IRS to resolve the TIGTA
            § 1203 allegations during Calendar Year 2003, used the data in the ECMS to
            calculate the average time and lapsed time between when the IRS received the
            complaint and when the case was closed on the ECMS database.
II.      Evaluated whether the IRS process accounted for and addressed referrals from the
         ETC Branch.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  The PARIS is the TIGTA OI case management system.
                                                                                                              Page 9
                           Restructuring and Reform Act of 1998
                     Section 1203 Allegations Were Properly Controlled

       A. To determine whether all of the ETC cases were adequately accounted for, obtained
          an extract from the ETC database for the period January 1, 2003, through
          March 31, 2004, of cases forwarded for resolution and traced the cases for the period
          January 1, 2004, through March 31, 2004, to the Automated Labor and Employee
          Relations Tracking System (ALERTS) to verify whether all of the ETC cases were
          accounted for.
       B. To determine the average length of time it took the IRS to resolve the ETC
          allegations, researched existing criteria regarding the timing of § 1203 case
          processing and, using the data in the ALERTS for Calendar Years 2002 and 2003,
          calculated the average lapsed time from when the case was received until the case
          was closed or sent to the § 1203 Review Board.
       C. To establish if the § 1203 ETC allegation cases opened over 180 calendar days past
          the date of referral were monitored for appropriate action, obtained a listing of ETC
          allegations from the ALERTS data that were open over 180 days past the date of
          referral as of March 31, 2004, and determined whether the IRS took any specific
          actions to identify and address those cases.
III.   Evaluated whether the IRS process accounted for and addressed the § 1203 reports of
       investigation sent by the TIGTA for resolution.
       A. To determine whether the IRS process adequately accounted for the TIGTA § 1203
          reports of investigation, obtained a PARIS extract of the § 1203 reports of
          investigation forwarded to the IRS during the period January 1, 2004, through
          March 31, 2004, and verified whether those referred by the TIGTA were accounted
          for in the ALERTS.
       B. To determine the average length of time it took the IRS to resolve the TIGTA reports
          of investigation, researched existing criteria regarding the timing of § 1203 case
          processing and, using the data in the ALERTS for Calendar Years 2002 and 2003,
          calculated the average time and lapsed time from when the case was received until
          when the case was closed or sent to the § 1203 Review Board for final review.
       C. To establish whether the § 1203 reports of investigation open over 180 calendar days
          past the date of first referral were monitored for appropriate action, obtained a listing
          of reports of investigation from the ALERTS data that were still open over
          180 calendar days past the date of referral as of March 31, 2004, and determined
          whether the IRS took any specific actions to identify and address those cases.
IV.    Determined whether the § 1203 cases forwarded to the § 1203 Review Board for
       adjudication were accounted for and addressed.




                                                                                            Page 10
                           Restructuring and Reform Act of 1998
                     Section 1203 Allegations Were Properly Controlled

       A. To determine whether the cases forwarded to the § 1203 Review Board were properly
          controlled, obtained an ALERTS extract of the § 1203 cases forwarded to the
          § 1203 Review Board from the Labor Relations Office during the period
          January 1, 2003, through March 31, 2004, and verified whether these cases were
          accounted for in the § 1203 Review Board tracking system.
       B. To determine the length of time it took to adjudicate the closed cases submitted
          during Calendar Years 2003 and 2004, calculated the overall time the case spent at
          the § 1203 Review Board until a final decision was made to recommend removal or
          mitigation. We interviewed key § 1203 Review Board staff to determine the
          methodology used to work the § 1203 Review Board’s cases. If delays exceeding
          60 calendar days were identified in processing individual cases at the § 1203 Review
          Board, we followed up to determine the cause and effect of the delay.


Note: In performing this audit, we used the TIGTA OI PARIS data and the IRS ECMS, ETC,
and ALERTS data to perform the queries needed to accomplish the above steps. We did not
determine whether the PARIS, ETC, ECMS, or ALERTS data provided were complete. Data
validation was limited to reviewing the data to extract the records used in our review. We
compared the records contained in the PARIS and the ETC data file to the records controlled in
the ALERTS and the ECMS extract.




                                                                                        Page 11
                          Restructuring and Reform Act of 1998
                    Section 1203 Allegations Were Properly Controlled

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
James D. O’Hara, Audit Manager
Cindy J. Harris, Lead Auditor
James M. Traynor, Senior Auditor
Tracy K. Harper, Auditor
David Lowe, Auditor
Lynn M. Ross, Auditor




                                                                                         Page 12
                         Restructuring and Reform Act of 1998
                   Section 1203 Allegations Were Properly Controlled

                                                                       Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Director, Workforce Relations OS:HC:R
Director, Employee Conduct and Compliance Office OS:HC:R:EC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief Human Capital Officer OS:HC




                                                                            Page 13
                           Restructuring and Reform Act of 1998
                     Section 1203 Allegations Were Properly Controlled

                                                                                  Appendix IV


                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Protection of Resources – Potential; 198 Employee Tax Compliance (ETC) cases affected
    (see page 6).
Methodology Used to Measure the Reported Benefit:
From the population of ETC referrals received during Calendar Years 2002 and 2003, we
identified 198 ETC cases open on the Automated Labor and Employee Relations Tracking
System that were over 180 days old as of March 31, 2004. We then performed a detailed review
of 22 of the 198 cases that had remained open for more than 360 days as of March 31, 2004.




                                                                                         Page 14
                               Restructuring and Reform Act of 1998
                         Section 1203 Allegations Were Properly Controlled

                                                                                                    Appendix V


                                        The Section 1203 Process

On July 22, 1998, the President signed into law the Internal Revenue Service (IRS) Restructuring
and Reform Act of 1998 (RRA 98).1 This Act added Title 26 United States Code Section
(§) 7803 (d)(1)(A), requiring the Treasury Inspector General for Tax Administration (TIGTA) to
annually report to the Congress any termination or mitigation under RRA 98 § 1203. Section
1203 provides the IRS Commissioner with the authority to terminate the employment of IRS
employees for certain proven violations committed in connection with the performance of their
official duties. The IRS Commissioner also has the authority to determine whether mitigating
factors exist that weigh against termination.
The § 1203 violations reported in the TIGTA Semiannual Report to the Congress are comprised
of 10 possible acts or omissions as described under the RRA 98. If there is a final determination
an IRS employee committed an act or omission, as described below, in the performance of the
employee’s official duties, that employee shall be removed for cause based on charges of
misconduct.
The acts or omissions that may subject an IRS employee to removal are:
    1. Willful failure to obtain the required approval signatures on documents authorizing the
       seizure of a taxpayer’s home, personal belongings, or business assets.
    2. Providing a false statement under oath with respect to a material matter involving a
       taxpayer or taxpayer representative.
    3. With respect to a taxpayer, taxpayer representative, or other employee of the IRS, the
       violation of:
           A.     Any right under the Constitution of the United States.
           B.     Any civil right established under:
                  i. Title VI or VII of the Civil Rights Act of 1964.2
                 ii. Title IX of the Education Amendments of 1972.3
                 iii. The Age Discrimination in Employment Act of 1967.4



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Pub. L. No. 88-352, 78 Stat. 241 (codified as amended in scattered sections of 2 U.S.C., 28 U.S.C., and 42 U.S.C.).
3
  20 U.S.C.A. §§ 1681-1688 (West Supp. 2003).
4
  29 U.S.C. §§ 621-634 (2000).

                                                                                                            Page 15
                               Restructuring and Reform Act of 1998
                         Section 1203 Allegations Were Properly Controlled

                 iv. The Age Discrimination Act of 1975.5
                  v. Section 501 or 504 of the Rehabilitation Act of 1973.6
                 vi. Title I of the Americans With Disabilities Act of 1990.7
      4. Falsifying or destroying documents to conceal mistakes made by any employee with
         respect to a matter involving a taxpayer or taxpayer representative.
      5. Assault or battery on a taxpayer, taxpayer representative, or other employee of the IRS,
         but only if there is a criminal conviction or a final judgment by a court in a civil case,
         with respect to the assault or battery.
      6. Violations of the Internal Revenue Code of 1986, Department of the Treasury
         regulations, or policies of the IRS (including the Internal Revenue Manual) for the
         purpose of retaliating against, or harassing, a taxpayer, taxpayer representative, or other
         employee of the IRS.
      7. Willful misuse of the provisions of § 6103 of the Internal Revenue Code of 1986 for the
         purpose of concealing information from a Congressional inquiry.
      8. Willful failure to file any return of tax required under the Internal Revenue Code of 1986
         on or before the date prescribed (including any extensions), unless such failure is due to
         reasonable cause and not to willful neglect.
      9. Willful understatement of Federal tax liability, unless such understatement is due to
         reasonable cause and not to willful neglect.
    10. Threatening to examine a taxpayer for the purpose of extracting personal gain or benefit.

In the TIGTA’s March 2004 Semiannual Report to the Congress, of the 207 § 1203 complaints
substantiated, 98 percent related to the willful failure of an employee to file a tax return or the
willful understatement of his or her Federal tax liability. The other reported complaints violated
one of the other forbidden acts or omissions.
All § 1203 allegations related to the acts or omissions outlined above, except those complaints
related to the failure to file a tax return or the understatement of Federal tax liability identified
through the Employee Tax Compliance (ETC) Branch or complaints related to discrimination
(civil rights) identified through the Equal Employment Opportunity process, are received and
initially evaluated by the TIGTA Office of Investigations (OI) Office of Operations or through
the individual OI field offices. The TIGTA OI receives allegations through a variety of media
(telephone, email, fax, mail, referral from the IRS, etc.). These § 1203 allegations generally
relate to employee false statements under oath, harassment, falsification of documents, assault or


5
  Pub. L. No. 94-135, title III, Sec. 301, 89 Stat. 728 (codified in 42 U.S.C.).
6
  Pub. L. No. 93-112, 87 Stat. 355 (codified as amended in scattered sections of 15 U.S.C., 20 U.S.C., 29 U.S.C.,
36 U.S.C., 41 U.S.C., and 42 U.S.C.).
7
  42 U.S.C. §§ 12101-12213 (2000).
                                                                                                            Page 16
                               Restructuring and Reform Act of 1998
                         Section 1203 Allegations Were Properly Controlled

battery, confidentiality and disclosure of return information, or threat of examination. If the
TIGTA believes a possible § 1203 violation occurred, it will open an investigation. If the
allegation is unclear as to whether a § 1203 violation occurred, the TIGTA OI will forward the
allegation to the Employee Conduct and Compliance Office (ECCO) on a complaint referral.
The allegations sent to the ECCO are tracked on the Executive Correspondence Management
System and further evaluated to assess if the allegation has § 1203 merit. ECCO analysts who
are assigned the § 1203 allegations conduct fact-finding and return their analysis and
findings/recommendations to the Board of Employee Professional Responsibility (BEPR). All
§ 1203 allegations except the tax compliance issues and cases identified by the Discrimination
Complaint Review Unit are reviewed by the BEPR. If the BEPR determines that no § 1203
violation occurred, a “clearance” letter is issued. “Closed without action” and “no investigation”
letters are issued for allegations that are less clear, such as when the complainant failed to allege
which constitutional or civil right was violated. However, if the BEPR determines that an
allegation may be a § 1203 violation, the allegation is returned to the TIGTA OI for
investigation.
When a clearance letter is issued, the allegation and resulting action are recorded on the
Automated Labor and Employee Relations Tracking System (ALERTS). However, if the
allegation is closed without action or a no investigation letter is issued, the case is not entered in
the ALERTS. However, the ECCO provides the TIGTA OI the results of the allegation reviews
and the final action taken on each case. If notification is not received in 180 calendar days, the
TIGTA OI Office of Operations sends a quarterly email to the BEPR following up on the status
of the outstanding overage § 1203 allegations.
Once the TIGTA OI completes its investigation of a § 1203 allegation opened as an official case,
a report of investigation is sent to the IRS through the IRS Centralized Investigation Receipt and
Control Unit (CIRCU). Information on the TIGTA reports of investigation is electronically
downloaded to the ALERTS. The CIRCU controls and forwards the TIGTA reports of
investigation and allegations (the case files) to the ECCO. The Director of the ECCO clears
unsubstantiated § 1203 cases by issuing clearance letters. If a case was not cleared, the ECCO
reviews the report of investigation and returns the case file to the CIRCU to forward to the
servicing Labor Relations Office for resolution.
Likewise, the allegations referred from the ETC Branch for failure to file a tax return or
understatement of an employee’s tax liability are electronically downloaded and tracked on the
ALERTS. Cases involving General Schedule (GS)-14 employees and below are sent to the
servicing Labor Relations office for resolution of the outstanding tax matter.8
Once a Labor Relations office receives the TIGTA reports of investigation and the ETC cases
determined to have § 1203 merit, the Labor Relations Specialists control the cases and assist


8
  If the alleged issue involves a senior executive, a GS-15, or a senior manager pay band employee, the related
allegations are forwarded directly to Centralized Adjudication Branch for review. We did not evaluate these cases
in this audit.
                                                                                                          Page 17
                           Restructuring and Reform Act of 1998
                     Section 1203 Allegations Were Properly Controlled

local IRS management in resolving the § 1203 allegations against their employees. The Labor
Relations Specialists use the ALERTS to track and document § 1203 cases resulting from the
TIGTA reports of investigation and the ETC referrals. The Labor Relations Specialists gather
the information needed about an employee’s willfulness and intent from the fact-finding
conducted by the employee’s manager and evaluate the § 1203 allegation by consulting with the
Area Labor Relations Senior Consultant. The result is a determination as to whether the
violation meets the § 1203 guidelines. When it is agreed that a violation did occur and the
§ 1203 allegation is substantiated, the Proposing Official (the employee’s second-line manager)
recommends removal in a letter to the employee. The employee has the opportunity to provide a
written or oral response, which is reviewed by the Deciding Official (the employee’s third-line
manager). The case file including the employee’s response is referred to the § 1203 Review
Board.
The § 1203 Review Board has two purposes: (1) to ensure consistency in reviewing cases in
which the allegations have been substantiated on § 1203 cases and removal is proposed and
(2) to make appropriate recommendations of other disciplinary actions on § 1203 cases with
mitigating circumstances to the Commissioner. As such, the § 1203 Review Board reviews the
allegation, the report of investigation, and the employee’s statement and considers any mitigating
circumstances. The § 1203 Review Board then either makes a recommendation to the
Commissioner to mitigate the penalty or decides to remove the employee. The § 1203 Review
Board’s decision to remove the employee is outlined in a memorandum signed by the § 1203
Review Board members, which is sent to the servicing Labor Relations Office where a removal
letter to the employee is prepared and signed by the employee’s manager. If mitigation is
recommended, the § 1203 Review Board presents the case to the Commissioner, who either
agrees with the Board’s recommendation or determines another appropriate action based on the
circumstance of the case, the employee’s prior history of misconduct, etc. The Commissioner
signs a memorandum outlining his or her decision, which is sent to the servicing Labor Relations
Office where a letter outlining the Commissioner’s decision is prepared and signed by the
employee’s manager and sent to the employee.




                                                                                          Page 18
      Restructuring and Reform Act of 1998
Section 1203 Allegations Were Properly Controlled

                                                    Appendix VI


Management’s Response to the Draft Report




                                                         Page 19
      Restructuring and Reform Act of 1998
Section 1203 Allegations Were Properly Controlled




                                                    Page 20
